                                                     National Railroad Passenger Corporation
                                                     Office of Inspector General
                                                     10 G Street N.E.
                                                     Washington, DC 20002




                      Theft From Minneapolis St. Paul Ticket Office
                                 Case Number 10-128
                                   August 17, 2010

A source reported that an Amtrak ticket agent may be stealing cash from within the Minneapolis
St. Paul ticket office. Agents substantiated this allegation through review of documents and
interviews. The ticket agent admitted to stealing over $30,000 in Amtrak revenue and resigned
from the ticket agent position
